OIG Investigative Reports, D.C. -September 23, 2010 - Former Williams College Professor and Advisor Sentenced to 50 Months in Prison for Policy Multiple Fraud Schemes
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
RONALD C. MACHEN JR.
United States Attorney for the
District of Columbia
Judiciary Center
555 Fourth Street, NW
Washington, D.C. 20530
Press Release
FOR IMMEDIATE RELEASE
Thursday, Jeptember 23, 2010
For Information Contact:
Public Affairs
(202) 514-6933
http://www.usdoj.gov/usao/dc/Press_Releases/index.html
Former Williams College Professor and Policy Advisor Sentenced to 50 Months in Prison for Multiple Fraud Schemes
WASHINGTON - Ernest Bernard Moore, formerly an assistant professor at Williams
College, visiting researcher at Yale Law School, and senior policy fellow for a Member of the
U.S. House of Representatives, was sentenced today to 50 months in jail following his guilty plea
to one count each of student aid fraud, bank fraud, and Social Security representative fraud, U.S.
Attorney Ronald C. Machen Jr. announced.
The sentencing follows an investigation by the Inspector General for the U.S. Department
of Education (“DOED”); the Washington Field Office of the U.S. Secret Service (“USSS”); the
Inspector General for the Social Security Administration (“SSA”); Philadelphia Field Division,
Office of Investigations, Office of the Inspector General (“OIG”), and U.S. Capitol Police.
Moore, 52, of Washington, D.C. and Williamstown, Mass., entered his guilty plea in
November 2009 in U.S. District Court for the District of Columbia before the Honorable Ricardo
M. Urbina.
According to the factual proffer agreed to by Moore, the defendant enrolled in 1985 at the
University of Southern California under the name Ernest Bouvier-Moore, an alias. Using this
false name and a Social Security number that was assigned to an associate of Moore, referred to
as “KM,” Moore applied for and received approximately $8,000 in federal student loan funds
from the U.S. Department of Education. However, Moore defaulted on those loans and, to date,
he has never repaid any part of those funds as he was required to do by the terms of the
promissory note for that loan.
In 1993, Moore created a new identity for himself by obtaining a California driver’s
license and a new Social Security number in the name of “Bernard Glenn-Moore.” In 2002,
Moore used this false name and Social Security number to apply successfully for admission to
Claremont Graduate University (“CGU”) in California to pursue a Master’s degree in Public
Policy. Also using this false name and Social Security number, Moore applied for and received
federal student aid in four disbursements totaling $37,000 for the 2002-2003 and 2003-2004
school years. In addition, Moore used this alias to apply for and receive four private student
loans from Chase Bank USA, N.A. and Citibank USA, N.A. (“Citibank”) totaling $79,777 in the
same years. During the same time period, Moore also used the alias “Bernard Moore” and the
same false Social Security number to open with the Stanford Federal Credit Union two Echecking
Accounts and a Student Savings Account and to apply for and receive two loans
totaling $7,000. In applying for admission to CGU, Moore falsely stated, among other things,
that he had received a Bachelor of Science degree in 1970 from the University of Puget Sound
under the name KM (when, in fact, Moore’s associate KM had earned that degree and Moore has
never received any undergraduate degree) and that “Tracy Cannady” was a reference (when, in
fact, that was another alias of Moore’s). In his applications for federal student aid, Moore falsely
stated, among other things, that he had children he supported and that he had not previously
defaulted on any federal student loan. In August 2004, Moore graduated from CGU, under his
alias, with a Master of Arts degree in Politics.
Thereafter, again using the false name Bernard Glenn-Moore and the Social Security
number he had obtained in that name, Moore was accepted into a graduate program at Howard
University to pursue a Ph.D. in Political Science, and he enrolled there in the Fall of 2004.
Again using this false name and Social Security number, Moore applied for and received federal
student aid in seven disbursements totaling $51,351 for the 2004-2005, 2005-2006, and 2006-
2007 school years. As before, in his applications for federal student aid, Moore falsely stated,
among other things, that he had an undergraduate degree, had children he supported, and had not
previously defaulted on any federal student loan. Using the alias Bernard Moore and the
associated Social Security number, Moore also applied for and received a student loan from
Citibank in 2008 totaling $9,000. In May 2009, Moore graduated from Howard University,
under his alias, with a Ph.D. in Political Science.
In 1994, Moore had created another new identity for himself by obtaining a California
identification card and a new Social Security number in the name “Tracy Glenn Cannady.” In the
summer of 2005, Moore used this false identity to apply successfully for enrollment at George
Washington University (“GWU”) as a non-degree student. Using the same alias, Moore also
applied for and received six private student loans from Bank of America and JP Morgan Chase
Bank totaling $109,000 in 2006 and 2007. Moore completed no credit hours at GWU under any
name.
Also in 2005, while attending Howard University, Moore began working for a Member of
the U.S. House of Representatives, first as a congressional fellow and later as a legislative
assistant and senior policy fellow. For purposes of his employment with Congress, Moore used
his alias Bernard Glenn-Moore and the Social Security number he had obtained in that name. In
September 2005, Moore used this false identity to open a checking account with the Wright
Patman Congressional Federal Credit Union (“WPCFCU”). Also in September 2005, Moore
used a different alias, Tracy Cannady, and the Social Security number he had obtained in that
name to open another checking account with WPCFCU. Moore falsely stated on the application
for Cannady’s account that Bernard Glenn-Moore was Cannady’s “spouse” and sponsor. Using
the alias Tracy Cannady, Moore also applied for and received two loans related to Tracy
Cannady’s account at WPCFCU in 2005 and 2006 totaling $4,600.
From 2003 to 2009, Moore opened more than 90 credit card accounts using the aliases
Tracy Cannady or Bernard Moore and the Social Security numbers he had obtained in those
names. Total purchases made were at least $502,992.97, and the outstanding balances total
approximately $469,099.52.
On October 23, 2001, “WB,” an associate of Moore’s, initially applied for Social
Security Administration (“SSA”) Disability benefits at the SSA District Office in Inglewood,
California. On the same date, Moore, using the name Bernard Glenn Moore and the associated
Social Security number, requested to become the Representative Payee for WB and was selected
as WB’s Representative Payee. Both WB and Moore were living in California at this time. In
June 2002, WB moved from California to Virginia, and in approximately September 2002, WB
began working again, although he needed a lot of time off in 2003 and 2004. A couple of months
after WB returned to work, Moore informed WB that his benefits would terminate in December
2002 due to his working. Unbeknownst to WB, Moore failed to notify SSA promptly that WB
had returned to work and that WB was no longer in Moore’s care and custody. In fact, Moore
continued to receive benefits checks on WB’s behalf, but did not forward them to WB after
December 2002. SSA determined that during the period January 2003 through September 2004,
Moore received $13,257 in benefits on WB’s behalf, but WB received no benefit from these
payments.
As part of today’s sentencing, Moore was ordered to pay a total of $759,593.86 in
restitution to numerous victims.
In announcing the sentencing, U.S. Attorney Machen praised the hard work of DOED OIG
Special Agent Carrie Jackson, USSS Special Agents Eric A. Traceski and Kevin Rydalch, SSA
OIG Special Agent Adrienne C. Messer, SSA District Office Claims Representative Judy Bura,
and U.S. Capitol Police Special Agent Dennis Holland. Finally, they commended Assistant U.S.
Attorney Laurel Loomis Rimon (formerly of D.C., now of the Eastern District of California) who
initiated the investigation, and Assistant U.S. Attorney Ellen Chubin Epstein, who prosecuted
this matter.
10-251
###
Top
Printable view
Last Modified: 10/07/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov